              CLOSEOUT MEMORANDUM FOR A-01060017
Our office received two allegations of plagiarism involving two PIS (subjects 1 and 2).'
According to the first allegation, part of the text in an NSF proposal,2 submitted by
subject 2 as the sole PI, contained verbatim text from a publication co-authored by
subjects 1 and 2.3 Subject 2 copied text from the publication he co-authored as
background information in the first proposal ("Introduction," "Description of Method,"
and "The Results from NSF Support" sections). Although subject 2 did not list the
publication in the first proposal's reference section, he did include it in his Biographical
Sketch in the proposal. As a co-author of the publication, however, the text is orikinal to
                                                                                    I,
him.

The second allegation involved a second NSF proposal^ submitted by subjects 2 ahd 1 as
PI and co-PI, respectively. The second proposal contained text copied from thk same
co-authored publication as background information ("Methods" section). The pubhation
is listed in both the reference section and in each subject's Biographical Sketch.
as co-authors, the subjects used their original text.

After considering these allegations, our office concluded that, although self plagiarism in
this case showed poor scholarship practices, it did not rise to the level of misconhuct in
science. The subjects should have shown more care in their use of their own materials by
referencing the sources.

This inquiry is closed and no further action will be taken.

cc: Investigations, IG.




                                        Page 1 of 1                               M 01-17
